Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




QUESTIONABLE BILLING FOR
MEDICARE PART B CLINICAL
 LABORATORY SERVICES




                         Brian P. Ritchie
                 Acting Deputy Inspector General
                  for Evaluation and Inspections

                          July 2014
                        OEI-03-11-00730
EXECUTIVE SUMMARY: QUESTIONABLE BILLING FOR MEDICARE
PART B CLINICAL LABORATORY SERVICES
OEI-03-11-00730

WHY WE DID THIS STUDY

Medicare is the largest payer of clinical laboratory (lab) services in the nation. From 2005 to
2010, Part B Medicare enrollment increased by 10 percent, while spending for lab services
increased by 29 percent. In 2010, Medicare payments for all Part B lab services totaled
$8.2 billion. We conducted this study to identify questionable billing patterns among Medicare
lab services.

HOW WE DID THIS STUDY

We based this study on an analysis of Part B claims for lab services with dates of service in
2010. Labs submit claims for each lab service provided for Medicare beneficiaries. Each claim
contains information about the lab provider, the ordering physician, the beneficiary, and the lab
service. We developed 13 measures to describe labs’ billing patterns and to identify labs with
questionable billing patterns. We calculated and analyzed the distribution of the measures for
each lab. We then calculated a statistical threshold for the 13 measures and determined whether
a lab’s billing was unusually high for each measure. Additionally, we calculated the total
number of claims and total allowed amount associated with certain measures of questionable
billing.

WHAT WE FOUND

In 2010, over 1,000 labs exceeded the thresholds (i.e., had unusually high billing) for 5 or more
measures of questionable billing for Medicare lab services. For example, a lab might have an
unusually high percentage of claims with ineligible and/or invalid ordering-physician numbers,
or an unusually high allowed amount per ordering physician. Almost half of the labs that
exceeded the thresholds for five or more measures of questionable billing—compared to
13 percent of all labs—were located in California and Florida, areas known to be vulnerable to
Medicare fraud. Some labs that exceeded the thresholds for fewer than five measures also
exhibited billing that may warrant further review. Medicare allowed $1.7 billion across all labs
for claims associated with questionable billing.

WHAT WE RECOMMEND

There may be some labs that have legitimate reasons for exceeding certain thresholds. However,
collectively, these findings call for stronger oversight of labs and identify specific issues with
Medicare payments for lab services that need to be addressed to more effectively safeguard
Medicare. Therefore, we recommend that the Centers for Medicare & Medicaid Services (CMS)
(1) review the labs identified as having questionable billing and take appropriate action,
(2) review existing program integrity strategies to determine whether these strategies are
effectively identifying program vulnerabilities associated with lab services, and (3) ensure that
existing edits prevent claims with invalid and ineligible ordering-physician numbers from being
paid. CMS concurred with all recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................3 

Findings........................................................................................................9 

           In 2010, over 1,000 labs had unusually high billing for five or 

           more measures of questionable billing for Medicare 

           lab services.......................................................................................9 

           Almost half of the labs that exceeded the thresholds for five or 

           more measures of questionable billing were located in 

           two States .......................................................................................15 

           Some labs that exceeded thresholds for fewer than five 

           measures of questionable billing exhibited billing that 

           may warrant further review ............................................................16 

           In 2010, Medicare allowed $1.7 billion for questionable claims

           across all labs .................................................................................17 

Conclusion and Recommendations ............................................................20 

           Agency Comments and OIG Response..........................................22 

Appendixes ................................................................................................23 

           A: Detailed Methodology for Evaluating Questionable 

           Lab Billing .....................................................................................23 

           B: Labs That Exceeded Thresholds for Measures of Questionable 

           Billing in 2010 ...............................................................................30 

           C: Agency Comments ...................................................................31 

Acknowledgments......................................................................................34

                    OBJECTIVE
                    To identify questionable billing for Part B clinical laboratory (lab) services
                    in 2010.

                    BACKGROUND
                    Clinical lab services include a range of chemical and other types of
                    examinations of specimens taken from the human body for the diagnosis,
                    prevention, or treatment of a disease or assessment of a medical
                    condition.1 Some of the most common lab services are complete blood
                    counts, lipid panels (tests for cholesterol screening), and urinalyses. More
                    than half of Medicare beneficiaries receive some type of lab service, other
                    than pathology, over the course of a year.2 Part B lab services may be
                    performed by independent labs, physician office labs, hospital labs (for
                    outpatient services), or labs located in other institutions.
                    Lab services are covered under Medicare Part B when they are ordered by
                    a physician or qualified nonphysician practitioner who is treating the
                    patient.3, 4 Lab services ordered by anyone other than the treating
                    physician are not considered reasonable or necessary.5
                    Medicare Payment for Lab Services
                    Medicare is the largest payer of clinical lab services in the Nation.6 From
                    2005 to 2010, Medicare enrollment in Part B increased by 10 percent,
                    while spending for Part B lab services increased by 29 percent.7, 8 In 2010,


                    1
                      Centers for Medicare & Medicaid Services (CMS), Medicare Benefit Policy Manual,
                    Pub. 100-02, ch. 15, § 80.1. 

                    2
                      Direct Research, LLC., Trends in Medicare Carrier-Paid Laboratory Testing Services, 

                    February 2006, p. 33. 

                    3
                      For the purposes of this report, we refer to physicians and nonphysician practitioners as 

                    “physicians.”

                    4
                      42 CFR § 410.32(a). 

                    5
                      Ibid. 

                    6
                      Medicare Payment Advisory Commission (MedPAC), Clinical Laboratory Services

                    Payment System, October 2011, p. 1.

                    7
                      CMS, Medicare Enrollment: National Trends 1966–2010. Accessed at
                    http://www.cms.gov/Research-Statistics-Data-and-Systems/Statistics-Trends-and-
                    Reports/MedicareEnrpts/downloads/HISMI2010.pdf on October 18, 2013.
                    8
                      CMS, Data Compendium (2011 Edition), Table II.3 (“Medicare Benefit Payments by
                    Type of Benefit, Fiscal Years 2008–2010). Accessed at http://www.cms.gov/Research-
                    Statistics-Data-and-Systems/Statistics-Trends-and-Reports/DataCompendium/
                    2011_Data_Compendium.html on October 18, 2013, and CMS, Data Compendium
                    (2008 Edition), Table II.3 (“Medicare Benefit Payments by Type of Benefit, Fiscal Years
                    2006–2007”). Accessed at http://www.cms.gov/Research-Statistics-Data-and-Systems/
                    Statistics-Trends-and-Reports/DataCompendium/16_2008DataCompendium.html on
                    October 18, 2013.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                        1
                    Medicare payments for all Part B lab services totaled $8.2 billion. Since
                    1997, the payment rates for lab services have increased three times. In
                    2003, payment rates increased by 1.1 percent; in 2009, by 4.5 percent; and
                    in 2012, by 0.65 percent.9
                    Medicare Billing Codes for Lab Services
                    Medicare sets payment rates for over 1,100 Healthcare Common
                    Procedure Coding System (HCPCS) codes used to bill for lab services.10
                    The HCPCS is a uniform coding system consisting of descriptive terms
                    and identifying codes for reporting medical services, procedures, products,
                    and supplies. HCPCS codes can define a single test or a panel (a group of
                    tests that are commonly performed together).
                    Each HCPCS code is assigned a Berenson-Eggers Type of Service
                    (BETOS) code. The BETOS coding system was developed primarily to
                    analyze the growth in Medicare expenditures. BETOS codes cover all
                    HCPCS codes, and a HCPCS code is assigned to only one BETOS code.
                    BETOS codes T1A through T1H (T1 codes) are used for clinical lab
                    services. Most HCPCS codes with a T1 code fall under HCPCS codes
                    80000 through 89999, which are pathology and lab services codes.
                    Related Office of Inspector General Work
                    In 2000, the Office of Inspector General (OIG) issued a report identifying
                    a number of common Medicare fraud schemes involving clinical lab
                    services.11 These schemes include billing for services not performed, not
                    ordered, or not needed; unbundling lab tests; upcoding; duplicate billing of
                    lab tests; and falsifying diagnoses.12 All of these fraudulent billing
                    practices were identified during Project LabScam, a nationwide law
                    enforcement project that focused on the billing practices of all major
                    independent labs in the country—specifically, independent clinical
                    diagnostic laboratories. The project resulted in settlements against several
                    laboratories, including Laboratory Corporation of America Holdings,
                    SmithKline Beecham, MetPath/MetWest, Damon, Roche, and Allied. The
                    report also stated that there were indications that problems similar to those
                    uncovered through Project LabScam were occurring with smaller
                    laboratories and certain providers.



                    9
                      MedPAC, Clinical Laboratory Services Payment System, October 2011, p. 2.

                    10
                       Ibid., p.1.

                    11
                       OIG, Medicare Payments for Clinical Laboratory Services: Vulnerabilities and

                    Controls, OEI-05-00-00070, January 2000. 

                    12
                       Unbundling is the practice of inappropriately reporting each component of a service or

                    procedure instead of reporting the single comprehensive code. Upcoding is the practice 

                    of billing at a higher level than warranted.





Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                      2
                    A 2002 OIG study investigated whether Medicare was paying for lab
                    services ordered by physicians with invalid or inactive unique physician
                    identification numbers (UPINs).13, 14 OIG found that in 2000, Medicare
                    paid $7.4 million for clinical lab service claims with invalid ordering
                    UPINs and $15.3 million for lab service claims with inactive ordering
                    UPINs.
                    A 2013 OIG study found that in 2011, Medicare paid between 18 and
                    30 percent more than other insurers for 20 high-volume and/or
                    high-expenditure lab tests. Medicare could have saved $910 million in
                    2011 if it had paid the lowest payment rate among insurers for these
                    20 tests. OIG recommended that CMS seek legislation that would allow
                    CMS to establish lower payment rates for lab services. OIG also
                    recommended that CMS consider seeking legislation to institute
                    copayments and deductibles for lab services.15
                    In addition, OIG has issued multiple reports related to questionable billing
                    patterns by other Medicare providers. Some of the most recent such
                    reports have reviewed questionable billing by community mental health
                    centers, home health agencies, retail pharmacies, and prescribers of Part D
                    drugs.16

                    METHODOLOGY
                    We extracted Medicare claims for lab services from CMS’s calendar year
                    (CY) 2010 National Claims History Physician/Supplier Part B claims file.
                    To identify lab services, we extracted claims with T1B through T1H
                    BETOS codes, which identify clinical lab tests as the type of service
                    received.
                    Exclusions. We excluded the following from our analysis:
                        claims for labs that had less than $1,000 in total Medicare allowances,
                        claim lines with an allowed amount of $0, and



                    13
                       CMS discontinued assigning UPINs in June 2007 and began using the National
                    Provider Identifier (NPI) as the primary and secondary provider identifier in May 2008.
                    14
                       OIG, Clinical Laboratory Claims with Invalid or Inactive Physician Numbers,
                    OEI-03-01-00670, October 2002.
                    15
                       OIG, Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial
                    Savings, OEI-07-11-00010, June 2013. 

                    16
                       OIG, Questionable Billing by Community Mental Health Centers, OEI-04-11-00100, 

                    August 2012; OIG, Inappropriate and Questionable Billing by Medicare Home Health

                    Agencies, OEI-04-11-00240, August 2012; OIG, Retail Pharmacies With Questionable 

                    Part D Billing, OEI-02-09-00600, May 2012; OIG, Prescribers With Questionable 

                    Patterns in Medicare Part D, OEI-02-09-00603, June 2013. 





Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                   3
                    	 claims without an NPI in either the field for the ordering physician or
                       the field for the performing provider.
                    	 claims with a placeholder NPI in either the field for the ordering
                       physician or the field for the performing provider.17
                    Table 1 provides the total number of claims that were excluded from the
                    analysis as well as the total allowed amount for these excluded claims.
                         Table 1: Total Number of Claims and Total Allowed Amount Excluded 

                         From Analysis 

                                                                  Number of Claims           Allowed Amount

                         Before Exclusions                                160,954,331            $7,289,295,095

                         After Exclusions                                 145,613,262            $7,258,915,889

                           Total Exclusions                                15,341,069              $30,379,206
                         Source: OIG analysis of claims for 2010 Part B clinical lab services.

                    Our final data set contained 145.6 million lab claims, which were
                    submitted by 94,609 labs for 23 million beneficiaries. In total, Medicare
                    allowed $7.3 billion to these providers for lab services rendered in 2010.
                    Grouping Lab Providers. Because large, nationwide, independent
                    laboratories may have greater billing volume and may have different
                    billing patterns compared to smaller, nonindependent labs, we separated
                    claims data into two groups: independent labs (ILs) and nonindependent
                    labs (non-ILs).18 An example of a non-IL would be a lab in a physician’s
                    office. We analyzed these two groups separately.
                    Using data from the Provider Enrollment, Chain, and Ownership System
                    (PECOS), we identified the specialty reported by each lab during
                    enrollment. For labs for which enrollment records could not be found in
                    PECOS, we reviewed specialty information from the Medicare NPI
                    Crosswalk (NPIC).19 For 46 labs, no enrollment records could be found in
                    PECOS or NPIC, so we used the main specialty code reported in the
                    National Plan and Provider Enumeration System (NPPES).
                    We considered a lab to be an IL if it had a PECOS specialty description of
                    “Independent Clinical Laboratories” or “Histocompatibility Laboratory,”
                    an NPIC specialty of “Clinical Medical Laboratory,” or an NPPES
                    specialty of “Clinical Medical Laboratory.” Labs not meeting these

                    17
                       An example of a placeholder NPI is 9999999992, which was used on claims submitted
                    by beneficiaries. 

                    18
                       An IL is independent both of an attending or consulting physician’s office and of a 

                    hospital. 

                    19
                       This crosswalk validates claims that contain a legacy number—such as a Medicare 

                    Provider Identification Number—and an NPI. 





Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                           4
                    criteria were considered non-ILs. In our final data set, we identified
                    2,598 ILs and 92,011 non-ILs.
                    Additional Provider and Beneficiary Data. To obtain addresses for
                    ordering physicians in our data set, we matched NPIs in NPPES. We also
                    used NPPES data to determine whether ordering physicians’ NPIs were
                    valid in 2010.
                    We used CMS’s Compromised Number Checklist (CNC) to identify
                    compromised provider NPIs, ordering-physician NPIs, and beneficiary
                    Health Insurance Claim Numbers (HICNs). In this report, we refer to lab
                    provider NPIs as “provider numbers,” ordering-physician NPIs as
                    “ordering-physician numbers,” and beneficiary HICNs as “beneficiary
                    numbers.” The CNC includes Medicare provider and beneficiary numbers
                    that are suspected of being compromised or verified as being
                    compromised. These numbers are obtained through fraud investigations,
                    security breach reports, and complaints from providers or beneficiaries.
                    CMS sends an updated CNC to each benefit integrity contractor monthly
                    and incorporates the CNC into its Fraud Prevention System, which is an
                    initiative to identify aberrant and suspicious billing patterns before claims
                    are paid. We considered the identification number for a lab, ordering
                    physician, or beneficiary to be compromised if the number was on the
                    CNC with no removal date as of August 5, 2013.20
                    All Part B Service Claims. In addition to obtaining claims for lab services,
                    we obtained claims for Medicare Part B services from CYs 2009 and 2010
                    for all beneficiaries identified in our data set. Using beneficiaries’ HICNs,
                    ordering physicians’ NPIs, and the dates of service from the lab claims, we
                    matched the lab claims to Part B service claims to determine whether
                    beneficiaries received other Part B services from the physician who
                    ordered the lab service within the 6 months prior to the lab service. We
                    extracted only claims in which the ordering physician on the lab claim was
                    the performing provider on the Part B claim.21
                    Identification of Labs That Had Questionable Billing
                    For each lab in our data set, we calculated the total allowed amount, total
                    number of claims, total number of ordering physicians, and total number



                    20
                       A removal date indicates that the corresponding provider number or beneficiary
                    number was not verified as compromised. However, these beneficiary and provider
                    numbers are not physically removed from the CNC.
                    21
                       It is possible that a provider not enrolled in Medicare ordered a lab service for a
                    beneficiary. In this case, the physician may have seen the beneficiary prior to the lab
                    service, but did not bill Medicare for this visit. Therefore, there would be no Part B claim
                    for this provider.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                       5
                    of beneficiaries.22 We then developed 13 measures to describe lab billing
                    and to identify labs with questionable billing. These measures were based
                    on information from previous studies on lab services, Federal criminal and
                    civil investigations involving lab services, OIG work on questionable
                    billing for other Medicare providers, discussions with CMS staff, and our
                    own analysis.
                    The 13 measures are:
                    (1)	 high average allowed amount per claim,
                    (2)	 high average number of claims per beneficiary,
                    (3)	 high average allowed amount per beneficiary,
                    (4)	 high average number of claims per ordering physician,
                    (5)	 high average allowed amount per ordering physician,
                    (6)	 high percentage of claims for beneficiaries with no associated Part B
                         services with the ordering physician,
                    (7)	 high percentage of claims for beneficiaries living more than
                         150 miles from the ordering physician,
                    (8)	 high percentage of duplicate lab tests,
                    (9)	 high percentage of claims with invalid ordering-physician numbers,
                    (10) high percentage of claims with ineligible ordering-physician
                         numbers,
                    (11) high percentage of claims with compromised beneficiary numbers,
                    (12) high percentage of claims with compromised ordering-physician
                         numbers, and
                    (13)	 compromised lab provider number.
                    We calculated these 13 measures for each lab and analyzed the distribution
                    of labs for each measure. We considered a lab’s billing to be unusually
                    high, or questionable, on a measure if the number or percentage was
                    greater than the 75th percentile plus 3 times the interquartile range.23, We
                    calculated the thresholds for ILs and non-ILs separately.24 We then

                    22
                       In cases where there was more than one lab NPI on a claim (0.01% of all claims), we
                    grouped together the line items associated with each separate lab NPI. 

                    23
                       This is a standard exploratory method for identifying members of a population with

                    unusually high values on a given statistic compared to the rest of the population when no

                    established benchmarks exist. See J.W. Tukey, Exploratory Data Analysis, 

                    Addison-Wesley, 1977. The interquartile range is the value at the 75th percentile minus

                    the value at the 25th percentile. 

                    24
                       One measure—compromised lab number—is a binary measure, as labs either did or did 

                    not have a compromised number. Because this measure is binary, it does not have a 

                    threshold.





Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                    6
                    determined the total number of measures for which each lab exceeded the
                    threshold.
                    Appendix A provides a full description of the methodology used to
                    calculate the 13 measures of questionable billing. Appendix B provides
                    the calculated thresholds for each of the 13 measures and the number of
                    labs that exceeded these thresholds.
                    Identification of Labs That Exceeded Thresholds for an
                    Unusually High Number of Measures of Questionable Billing
                    After determining the total number of measures of questionable billing for
                    which each lab exceeded the threshold, we determined whether each lab
                    exceeded the threshold for an unusually high number of measures. We
                    calculated this threshold using the 75th percentile plus 3 times the
                    interquartile range. The threshold was four; therefore, any lab that
                    exceeded the thresholds for five or more measures of questionable billing
                    was an outlier.
                    Geographic Analysis of Labs That Exceeded Thresholds for
                    Five or More Measures of Questionable Billing
                    For labs that exceeded the thresholds for five or more measures of
                    questionable billing, we determined whether they were concentrated in
                    certain States or counties. We used the ZIP Code on a lab’s claim to
                    determine its practice location. If a lab had multiple ZIP Codes, we used
                    the ZIP Code that appeared on the highest number of claims. Using
                    mapping software, we mapped labs’ physical locations onto a national
                    map.25 We determined which States and counties had the highest
                    concentrations of labs with questionable billing.
                    Analysis of Claims and Payments Associated with Measures of
                    Questionable Billing
                    We calculated the total number of claims and total allowed amount
                    associated with 8 of the 13 measures of questionable billing. Because we
                    could perform these calculations only on measures of questionable billing
                    that were binary at the claim level (e.g., a claim either did or did not have
                    an invalid ordering-physician number), we excluded 5 of the 13 measures
                    from this analysis.26 To calculate the total number of claims and total
                    allowed amount associated with the measures of questionable billing, we


                    25
                      There were 30 labs that did not map by county in ArcGIS, Version 10.1.
                    26
                       We excluded the following five measures: high average allowed amount per ordering
                    physician, high average allowed amount per claim, high average number of claims per
                    ordering physician, high average allowed amount per beneficiary, and high average
                    number of claims per beneficiary. These measures were based on each lab’s overall
                    billing.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                    7
                    first identified the claims associated with each measure. For example, we
                    identified all claims with an invalid ordering-physician number, regardless
                    of whether the lab that submitted the claim exceeded the threshold for this
                    measure. We then counted the number of claims associated with the
                    measure and summed those claims’ allowed amounts.
                    Limitations
                    We did not independently verify the accuracy of the data used for this
                    study. Our findings are based on the analysis of claims; we did not
                    conduct a medical record review to determine whether the services for
                    which labs billed were inappropriate or fraudulent. The 13 measures
                    included in our analysis are not intended to be a comprehensive set of
                    characteristics for identifying labs with questionable billing.
                    We designed this study to identify labs that warrant further review. None
                    of the measures analyzed confirm that a particular lab is engaging in
                    fraudulent or abusive practices. Some labs may have legitimate reasons
                    for exceeding certain thresholds, such as being highly specialized labs that
                    provide unique or complex testing for beneficiaries across the country.
                    Several of the individual measures have additional limitations specific to
                    that measure. These limitations are discussed in Appendix A.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation issued by the Council of the Inspectors General
                    on Integrity and Efficiency.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)          8
                    FINDINGS
                    In 2010, over 1,000 labs had unusually high billing for
                    five or more measures of questionable billing for
                    Medicare lab services
                    In total, 1,032 out of 94,609 labs exceeded the thresholds for at least 5 of
                    the 13 measures of questionable billing. Together, these labs were allowed
                    $1 billion for lab services rendered in 2010 and had an average allowed
                    amount of $1 million. Although some of this billing may be legitimate, all
                    labs that exceeded thresholds on five or more measures of questionable
                    billing may warrant further scrutiny. Table 2 shows the distribution across
                    labs of the numbers of measures of questionable billing for which labs
                    exceeded thresholds. Appendix B provides the thresholds for the
                    measures of questionable billing and the total number of labs that
                    exceeded each threshold.

                   Table 2: Number and Percentage of Labs by Number of Measures of
                   Questionable Billing for Which Labs Exceeded Thresholds

                   Number of Measures of
                   Questionable Billing for               Number of        Percentage of
                                                                                                Total Allowed
                   Which Labs Exceeded                        Labs                 Labs
                   Thresholds

                   0                                            45,443                 48%       $956,158,938
                   1                                            27,945                 30%      $1,563,789,669
                   2                                            12,613                 13%      $2,087,369,118
                   3                                             5,498                     6%   $1,068,124,711
                   4                                             2,078                     2%    $546,657,550
                   5                                               696                0.7%       $478,416,779
                   6                                               249                0.3%       $297,388,054
                   7                                                 63              0.07%       $238,716,257
                   8                                                 20              0.02%        $13,941,546
                   9                                                  4            <0.01%          $8,353,267
                                                                                            1   $7,258,915,889
                       Total                                    94,609               100%
                   Source: OIG analysis of claims for 2010 Part B clinical lab services.
                   1
                    The percentages do not sum to 100 percent because of rounding.

                    For labs that exceeded at least five thresholds, the number of labs that
                    exceeded the threshold for each particular measure is shown in Table 3.
                    The most frequently exceeded thresholds among these labs were those for
                    the following measures: high average allowed amounts per ordering
                    physician, high percentage of claims with ineligible ordering-physician
                    numbers, high percentage of claims with compromised beneficiary
                    numbers, and high percentage of duplicate lab tests.



Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                          9
Table 3: Labs That Exceeded the Thresholds for Five of More Measures of Questionable Billing, by
Measure

                                                                                                Percentage of Labs
                                                                            Number of Labs
                                                                                                 That Exceeded the
Measure of Questionable Billing                                          That Exceeded the
                                                                                                         Threshold
                                                                        Threshold (N=1,032)
                                                                                                          (N=1,032)

High average allowed amount per ordering physician                                        813                 79%

High percentage of claims with ineligible ordering-physician
                                                                                          799                 77%
numbers

High percentage of claims with compromised beneficiary
                                                                                          707                 69%
numbers

High percentage of duplicate lab tests                                                    670                 65%

High average allowed amount per claim                                                     637                 62%

High average number of claims per ordering physician                                      475                 46%

High average allowed amount per beneficiary                                               451                 44%

High percentage of claims with compromised
                                                                                          335                 32%
ordering-physician numbers

High percentage of claims for beneficiaries with no
                                                                                          230                 22%
associated Part B services with ordering physician

High percentage of claims with beneficiaries living more
                                                                                          212                 21%
than 150 miles from the ordering physician

High percentage of claims with invalid ordering-physician
                                                                                          187                 18%
numbers

High average number of claims per beneficiary                                              72                   7%

Compromised lab provider number                                                           23                   2%
Source: OIG analysis of claims for 2010 Part B clinical lab services.



                    Below are some examples of billing patterns found for lab providers that
                    exceeded the thresholds for five or more measures of questionable billing
                    in 2010:
                    	 An IL in Texas was one of four labs that exceeded the thresholds for
                       nine measures of questionable billing. All of this lab’s claims
                       contained compromised beneficiary numbers, none of these
                       beneficiaries had an associated Part B service with the ordering
                       physician within 6 months prior to the lab service, and 89 percent of
                       claims were for beneficiaries who lived over 150 miles from the
                       ordering physician. Furthermore, this lab was allowed an average of
                       $61,434 per ordering physician—15 times the overall average for ILs.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                         10
                         In addition, 13 percent of this lab’s claims had ineligible
                         ordering-physician numbers. This lab, whose provider number also
                         was compromised, was allowed $2 million.
                    	 For a California IL, all 1,224 beneficiaries for whom this lab submitted
                       claims had compromised beneficiary numbers. In addition, 45 percent
                       of claims had ineligible ordering-physician numbers and 41 percent of
                       claims had compromised ordering-physician numbers. This lab was
                       also allowed an average of $61,041 per ordering physician, which is
                       15 times the average among ILs. This lab was allowed almost
                       $1 million in 2010.
                    	 More than 90 percent of one Ohio IL’s claims had compromised
                       beneficiary numbers, and 58 percent of its claims had compromised
                       physician numbers. This lab’s provider number was also
                       compromised. In addition, 79 percent of the claims were for
                       beneficiaries who had no Part B claim with the ordering physician
                       within 6 months, and 10 percent of the claims had ineligible
                       ordering-physician numbers. This lab was allowed $2.8 million in
                       2010.
                    	 A non-IL in Florida was allowed an average of $1,193 per beneficiary,
                       16 times the average for non-ILs. The average allowed per ordering
                       physician for this lab was $107,700, or 24 times the overall average for
                       non-ILs. This lab also exceeded the thresholds for the percentage of
                       claims with a compromised beneficiary number, the percentage of
                       claims for beneficiaries who lived more than 150 miles from the
                       ordering physician, and the percentage of duplicate lab tests. This lab
                       was allowed $7.8 million in 2010.
                    	 For a Michigan IL, almost all claims had an ineligible
                       ordering-physician number, and none of the 68 beneficiaries
                       associated with the claims had a prior Part B service with the ordering
                       physician within 6 months prior to the lab claim. In addition,
                       Medicare allowed this lab $204,237 for 1,300 claims that were
                       submitted by only 2 ordering physicians. This is an average of
                       650 claims per ordering physician (11 times the overall average for
                       ILs) and an average allowed amount of $102,119 per ordering
                       physician (25 times the overall average for ILs).
                    	 A non-IL in New York exceeded the thresholds for 8 measures of
                       questionable billing and had an average allowed amount of $2,422 per
                       beneficiary (33 times the overall average for non-ILs) and an average
                       allowed amount of $253 per claim (7 times the average). In addition,
                       5 percent of this lab’s claims had ineligible ordering-physician
                       numbers. This lab was allowed $1.1 million in 2010.



Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)      11
                    Eighty percent of labs that exceeded the thresholds for five or
                    more measures of questionable billing had unusually high
                    percentages of claims with ineligible and/or invalid
                    ordering-physician numbers
                    A large majority of labs that exceeded the thresholds for 5 or more
                    measures of questionable billing (830 out of 1,032 such labs) had an
                    unusually high percentage of claims with invalid ordering-physician
                    numbers, an unusually high percentage of claims with ineligible
                    ordering-physician numbers, or both.
                    Of the 1,032 labs with 5 or more measures of questionable billing,
                    799 exceeded the threshold indicating an unusually high percentage of
                    claims with ineligible ordering-physician numbers. Most of these labs had
                    less than 10 percent of their claims with ineligible ordering-physician
                    numbers. However, for 160 labs, more than a quarter of the lab’s claims
                    had ineligible ordering-physician numbers. The number of ineligible
                    ordering-physician numbers for these labs ranged from 1 to 114, and the
                    amount allowed per ordering physician ranged from $221 to $132,938.
                    Furthermore, 50 of these labs had only 1 ordering physician, so all of their
                    claims were for services ordered with an ineligible physician number.
                    Four of these labs were allowed more than $100,000 for claims ordered
                    with one ineligible physician number.
                    Additionally, a number of labs that exceeded the thresholds for five or
                    more measures of questionable billing also had unusually high percentages
                    of claims with invalid ordering-physician numbers. Of the 1,032 labs that
                    exceeded the thresholds for 5 or more measures of questionable billing,
                    187 had unusually high percentages of claims for lab services ordered with
                    invalid physician numbers. Almost all of these labs had less than
                    3 percent of claims for lab services ordered with invalid physician
                    numbers. However, one non-IL submitted 414 claims, of which
                    98 percent contained an invalid ordering-physician number.
                    A small number of labs had unusually high percentages of claims with
                    both ineligible and invalid ordering-physician numbers. Among these
                    labs, the highest amount associated with an invalid or ineligible
                    ordering-physician number was $60,097. One non-IL had invalid
                    ordering-physician numbers on 8 percent of its claims and ineligible
                    ordering-physician numbers on 21 percent of claims.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)       12
                    Almost 80 percent of labs that exceeded the thresholds for five
                    or more measures of questionable billing had unusually high
                    average allowed amounts per ordering physician
                    Many of the labs that exceeded the thresholds for 5 or more measures of
                    questionable billing (813 labs out of 1,032) exceeded the threshold that
                    indicated an unusually high average allowed amount per ordering
                    physician. These labs had a range of $902 to $647,179 per ordering
                    physician, with an average of $11,552. More than half of these labs also
                    had an unusually high average number of claims per ordering physician.
                    Additionally, 10 of the 15 labs with an average of more than $100,000 per
                    ordering physician had less than 5 physicians order all of their lab
                    services.
                    Many labs that exceeded the thresholds for five or more
                    measures of questionable billing had unusually high
                    percentages of claims with compromised numbers
                    Three-quarters of labs that exceeded the thresholds for five or more
                    measures of questionable billing exceeded at least one of the thresholds
                    indicating a high percentage of claims with a compromised number.
                    As shown in Table 3, 707 of the 1,032 labs had unusually high percentages
                    of claims with compromised beneficiary numbers. Eleven labs had
                    compromised beneficiary numbers on over 90 percent of their claims.
                    These 11 labs were allowed a total of $7.5 million.
                    Another 335 labs had unusually high percentages of claims with
                    compromised ordering-physician numbers. These labs were allowed an
                    average of $5,127 per compromised ordering-physician number. Among
                    these labs, the highest amount associated with one compromised
                    ordering-physician number was $1.2 million. Additionally, 16 labs had
                    more than a quarter of their claims for lab services ordered with
                    compromised physician numbers. These 16 labs were allowed an average
                    of $48,551 per compromised ordering-physician number.
                    Medicare allowed $11.2 million to 23 labs that exceeded the thresholds for
                    5 or more measures of questionable billing and had compromised lab
                    provider numbers. These labs were allowed an average of $488,961.
                    Twenty-one of these labs also had unusually high percentages of claims
                    with compromised beneficiary numbers and unusually high percentages of
                    claims with compromised ordering-physician numbers. For example, one
                    IL with a compromised provider number was allowed $556,403 for claims
                    submitted for 820 beneficiaries—all of whom had compromised
                    beneficiary numbers. In addition, 37 percent of this lab’s claims had
                    compromised ordering physician numbers.



Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)        13
                    Twenty-two percent of labs that exceeded the thresholds for
                    five or more measures of questionable billing had unusually
                    high percentages of claims for beneficiaries with no
                    associated Part B services with the ordering physician
                    By regulation, lab services not ordered by the physician who is treating the
                    beneficiary are not reasonable and necessary. Therefore, having an
                    unusually high percentage of claims for beneficiaries with no recent,
                    associated Part B services with the ordering physician could mean that the
                    lab billed for unnecessary services. Of the 1,032 labs that exceeded the
                    thresholds for 5 or more measures of questionable billing, 230 had
                    unusually high percentages of claims for a beneficiary without recent
                    contact with the ordering physician listed on the lab claim. These labs had
                    between 70 and 100 percent of claims for beneficiaries for whom we could
                    find no associated Part B service with the ordering physician within
                    6 months prior to the lab service.27 For 70 of these labs, all of their claims
                    were for beneficiaries without associated Part B services with the ordering
                    physician. These labs billed claims for an average of 256 beneficiaries
                    and had an average allowed amount of $63,081 per lab. Medicare allowed
                    $4.4 million to these 70 labs.
                    Twenty-one percent of labs that exceeded the thresholds for
                    five or more measures of questionable billing had unusually
                    high percentages of claims for beneficiaries residing more
                    than 150 miles from the physician who ordered the lab
                    services
                    Although many lab services can be sent across the country for testing and
                    review, it is unlikely that a lab would have many beneficiaries that reside
                    far from their treating physician. In 2010, 21 percent of labs that exceeded
                    the thresholds for five or more measures of questionable billing had
                    unusually high percentages of claims for beneficiaries residing more than
                    150 miles from the physician who ordered the lab services. These labs
                    had a range of 12 to 99 percent of claims for beneficiaries residing more
                    than 150 miles from the ordering physician, with an average of 25 percent.
                    For two labs, almost all of their claims were for beneficiaries living more
                    than 150 miles from the ordering physician. The average distance
                    between beneficiaries and ordering physicians for these 2 labs was
                    629 miles.



                    27
                      There may be cases in which the ordering physician was not a Medicare-enrolled
                    physician and, therefore, there would be no prior Part B service claim billed to Medicare
                    for this beneficiary.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                    14
                    Almost half of the labs that exceeded the thresholds
                    for five or more measures of questionable billing were
                    located in two States
                    In 2010, 43 percent (444 of 1,032) of labs that exceeded the thresholds for
                    five or more measures of questionable billing were located in California
                    and Florida, areas known to be vulnerable to Medicare fraud. In
                    comparison, only 13 percent of all labs were located in these two States.
                    Each State had more than 150 labs with questionable billing in 2010.
                    Overall, Medicare allowed a total of $603 million to the 444 labs.
                    Six percent of all labs were located in California; however, 28 percent of
                    labs with questionable billing were located in the State. As shown in
                    Table 4, Medicare allowed $348 million to 288 labs with questionable
                    billing located in California. Of these 288 labs, almost half (48 percent)
                    were located in Los Angeles County. These Los Angeles County labs
                    were allowed $46 million of the $263 million allowed to all labs in the
                    county. Overall, 14 percent of labs with questionable billing nationwide
                    were located in Los Angeles County.
                    Additionally, 15 percent of labs with questionable billing, compared to
                    7 percent of all labs, were located in Florida. Medicare allowed
                    $255 million to the 156 labs with questionable billing in Florida. More
                    than 40 percent of these labs were located in Miami–Dade and
                    Palm Beach counties.
                    The remaining 588 labs with questionable billing were distributed among
                    42 other States, the District of Columbia, and Puerto Rico. Six States—
                    Montana, New Hampshire, North Dakota, Rhode Island, South Dakota,
                    and Wyoming—did not have any labs with questionable billing.

              Table 4: Number of Labs With Questionable Billing Per State, 2010
                                                                                                    Total Allowed For
                                                                 Number of Labs That
                                                                                                 Labs That Exceeded
                                                                        Exceeded the
                                                                                                   the Thresholds for
              State                  Number of All Labs         Thresholds for Five or
                                                                                               Five or More Measures
                                                                    More Measures of
                                                                                                      of Questionable
                                                                 Questionable Billing
                                                                                                               Billing
              California                        6,046 (6%)                      288 (28%)                   $348,005,965

              Florida                           6,520 (7%)                      156 (15%)                   $254,822,761
                                                                                  1
              Other                          82,013 (87%)                      588 (57%)                    $433,987,177
                         2
                 Total                     94,579 (100%)                    1,032 (100%)                   $1,036,815,903

              Source: OIG analysis of claims for Part B clinical lab services, 2010. 

              1
                These labs were located in 42 other States, the District of Columbia, and Puerto Rico. 

              2
                These totals do not include 30 labs for which addresses did not map by county.





Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                               15
                    Some labs that exceeded thresholds for fewer than
                    five measures of questionable billing exhibited billing
                    that may warrant further review
                    In 2010, 51 percent of labs exceeded the threshold for at least one measure
                    of questionable billing, but did not exceed the thresholds for five or more
                    measures. These 48,134 labs had a total allowed amount of $5.3 billion
                    for lab services in 2010. Although these labs exceeded the thresholds for
                    fewer than five measures of questionable billing, some of these labs
                    exhibited billing patterns that may require further scrutiny. Below are
                    some examples of billing that could be problematic:

                         	 One non-IL, which exceeded the thresholds on 4 measures of
                            questionable billing, had 97 percent of its claims for beneficiaries
                            who had no associated Part B service with the ordering physician
                            within 6 months prior to the lab service. Additionally, 97 percent
                            of the lab’s claims were for beneficiaries living more than
                            150 miles from the ordering physician. This lab had a total
                            allowed amount of $669,781.
                         	 One IL billed 16,351 claims, of which 41 percent had
                            compromised beneficiary numbers and 30 percent had
                            compromised ordering-physician numbers. This lab had a total
                            allowed amount of $1.5 million, but exceeded the threshold on
                            only two measures of questionable billing.
                         	 Another IL billed 85,416 claims and had a total allowed amount of
                            $4 million. Although this provider exceeded the threshold of only
                            one measure of questionable billing, more than half of its claims
                            were for services ordered by two physicians with ineligible
                            numbers. The lab was allowed $2,075,661 for lab services with
                            ineligible physician numbers.
                         	 One non-IL exceeded the thresholds on 3 measures of questionable
                            billing but had an average allowed amount of $5,547 per
                            beneficiary (compared to an average of $74) and billed for
                            21 claims per beneficiary (7 times the average). This lab was
                            allowed a total of $232,977.


                    In 2010, Medicare allowed $1.7 billion for
                    questionable claims across all labs
                    Across all labs, Medicare allowed a total of $1.7 billion for claims
                    associated with eight types of questionable billing. Table 5 provides the
                    total Medicare-allowed amount for claims associated with each of the
                    eight measures of questionable billing.


Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)         16
                    In 2010, Medicare allowed $1.2 billion for claims with
                    beneficiaries who had no associated Part B service with the
                    ordering physician within 6 months prior to the lab service
                    Lab services must be ordered and used promptly by the physician or
                    qualified nonphysician practitioner who is treating the beneficiary.
                    However, Medicare allowed $1.2 billion in 2010 for 23 million claims
                    with beneficiaries who had no associated Part B service with the ordering
                    physician within the 6 months prior to the lab service. Although there may
                    be legitimate reasons why a beneficiary may not have a previous Part B
                    service with the ordering physician on the lab service, the number of
                    claims and total dollar amount for this measure were substantial.

Table 5: Total Allowed for Claims Associated with Certain Measures of Questionable Billing Across All Labs
                                                                                   Number of Claims
                                                                                    Associated With
Measure of Questionable Billing                                                                                    Total Allowed1
                                                                                         Measure of
                                                                                 Questionable Billing
Claims for beneficiaries with no associated Part B service with
                                                                                             22,944,979            $1,178,173,922
ordering physician

Claims with beneficiaries living more than 150 miles from the
                                                                                              5,281,457              $324,531,514
ordering physician

                                                                                                         2
Duplicate lab tests                                                                            997,151               $234,593,465

Claims with ineligible ordering-physician numbers                                             1,751,375               $94,062,753

Claims with compromised beneficiary numbers                                                   1,251,264               $76,323,259

Claims with compromised ordering-physician numbers                                              400,153               $23,551,040

Claims with a compromised lab provider number                                                   200,000               $13,654,926

Claims with invalid ordering-physician numbers                                                    52,604                $2,579,106
Source: OIG analysis of claims for 2010 Part B clinical lab service claims.

1
  The total allowed in this table exceeds the $1.7 billion for questionable claims because some claims were included in more than

one measure of questionable billing. 

2
  These are numbers of duplicate tests, not duplicate claims.




                    In 2010, Medicare allowed $325 million for claims for which the
                    beneficiary lived more than 150 miles from the ordering
                    physician
                    One would expect that a beneficiary—in addition to having a previous
                    Part B service with the physician who ordered the lab service—would
                    reside within a reasonable distance from the ordering physician. Again,
                    there may be legitimate reasons why a beneficiary would live far from an
                    ordering physician, e.g., seeing a specialist outside of the area. However,



Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                                 17
                    in 2010, Medicare allowed $325 million for 5.3 million claims in which
                    the beneficiary’s address was more than 150 miles from the ordering
                    physician’s address. These claims had an average distance of
                    851 miles between the beneficiary and ordering physician. As with claims
                    for a beneficiary who had no associated Part B service with the ordering
                    physician within 6 months prior to the lab service, claims for which the
                    beneficiary lives significantly far from the ordering physician may indicate
                    that the ordering physician is not the treating physician.
                    In 2010, Medicare allowed $235 million for duplicate lab tests
                    Medicare allowed $235 million for 997,151 duplicate lab tests. This
                    means that a lab billed for the same test on the same day for the same
                    beneficiary, raising questions about whether tests were reasonable and
                    necessary.
                    In 2010, Medicare allowed $97 million for claims with ineligible
                    or invalid physician numbers
                    Medicare allowed $94 million for 1.75 million claims ordered with
                    physician numbers that were not eligible to order lab services. These
                    claims were ordered by organizational providers, e.g., labs or group
                    practices, which are not eligible to order Medicare lab services.28
                    Medicare also allowed $2.6 million for 52,604 claims ordered with invalid
                    physician numbers.
                    In 2010, Medicare allowed $96 million for claims associated
                    with compromised numbers
                    Overall, Medicare allowed $96 million for 1,601,710 claims with one or
                    more compromised number on the claim.29 Specifically, Medicare allowed
                    $76 million for claims for 144,554 beneficiaries with compromised
                    numbers. Medicare allowed $23.6 million for 400,153 claims ordered
                    with 861 compromised physician numbers. Lastly, Medicare allowed
                    $13.7 million for claims submitted by labs with compromised provider
                    numbers.




                    28
                       Only individual physicians and nonphysician practitioners are eligible to order or refer
                    items or services.
                    29
                       This dollar amount includes claims with just one compromised number, such as the
                    beneficiary number, and claims that have two or three compromised numbers, i.e., a
                    combination of compromised provider number, compromised ordering-physician
                    number, and/or compromised beneficiary number.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                      18
                    CONCLUSION AND RECOMMENDATIONS
                    In 2010, 52 percent of labs nationwide exceeded the threshold for at least
                    one measure of questionable billing. Prior OIG reports have found that lab
                    services are vulnerable to fraud, waste, and abuse. This report found
                    questionable billing by lab providers and continued vulnerabilities in
                    Medicare payments for lab services.
                    In 2010, a total of 1,032 labs exceeded the thresholds for five or more
                    measures of questionable billing. Almost half of these 1,032 labs were
                    located in 2 States—California and Florida—that are known to be
                    vulnerable to Medicare fraud. Additionally, questionable billing was
                    associated with substantial Medicare payments. For example, Medicare
                    paid $325 million for claims for which the beneficiary lived more than
                    150 miles from the physician who ordered the lab service. In total,
                    Medicare paid $1.7 billion across all labs for questionable claims for lab
                    services. Although there may be legitimate reasons for some of this
                    billing, all of these types of questionable billing for lab services warrant
                    further review.
                    Collectively, the findings identify specific vulnerabilities with Medicare
                    payments for lab services that need to be addressed to more effectively
                    safeguard the Medicare program. CMS must use all of the tools at its
                    disposal to more effectively identify and prevent questionable payments
                    for Part B lab services.
                    Therefore, we recommend that CMS:
                    Review the labs identified as having questionable billing and
                    take appropriate action
                    In a separate memorandum, OIG will refer to CMS the 1,032 labs that we
                    identified as exceeding the thresholds for 5 or more measures of
                    questionable billing. To address labs’ questionable billing, CMS and/or its
                    contractors should adequately review the billing of these labs. After this
                    review, CMS should implement actions, as appropriate. Such actions
                    could include, but are not limited to (1) recouping any improper payments
                    identified during review of labs’ billing, (2) suspending payments to the
                    labs with questionable billing, (3) educating labs as to how to properly bill
                    for services, (4) revoking a lab’s Medicare privileges, (5) referring a lab to
                    law enforcement for criminal investigation, or (6) taking no action, if a
                    lab’s billing is determined to be appropriate.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)            19
                    Review existing program integrity strategies to determine
                    whether they are effectively identifying program vulnerabilities
                    associated with lab services
                    CMS should review existing program integrity strategies that are being
                    implemented by Medicare Administrative Contractors (MACs), Medicare
                    Zone Program Integrity Contractors (ZPICs), Recovery Audit Contractors
                    (RACs), and the Fraud Prevention System to monitor labs and lab
                    claims.30 CMS should determine whether these program integrity
                    strategies are sufficiently identifying vulnerabilities in lab claims and
                    identifying labs with questionable billing patterns for further review. This
                    should include reviewing strategies for identifying and addressing claims
                    with compromised provider or beneficiary numbers.
                    Ensure that existing edits prevent claims with invalid and
                    ineligible ordering-physician numbers from being paid
                    In October 2012, CMS stated (in an edition of MLN Matters) its plans to
                    implement edits that would deny Part B claims for services ordered by
                    physicians who are not eligible to order and refer or do not have a valid
                    NPI. In March 2013, CMS announced that the edits to deny claims with
                    ineligible ordering or referring physicians would become active in
                    May 2013; however, in April 2013 CMS announced that there would be a
                    temporary delay in implementing the edits. In November 2013, CMS
                    stated (in MLN Matters) that denial edits would be effective as of
                    January 6, 2014. CMS should ensure that these edits are preventing
                    claims with ineligible and invalid ordering-physician numbers from being
                    paid.




                    30
                      MACs are responsible for processing Medicare claims, enrolling health care providers
                    and educating providers on Medicare billing requirements. ZPICs and RACs perform
                    program integrity work for Medicare Parts A and B. The Fraud Prevention System uses
                    predictive analytics technology to identify and prevent the payment of improper claims.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                  20
                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS concurred with all three of our recommendations. Regarding the
                    first recommendation, CMS stated that it will direct the ZPICs to follow
                    up and investigate the laboratories identified with questionable billing.
                    In response to our second recommendation, CMS stated that it is using the
                    Fraud Prevention System to identify possible fraudulent, wasteful, or
                    abusive activities associated with laboratory services, and to provide
                    ZPICs and PSCs with actionable information to initiate and facilitate their
                    investigations. CMS stated that as a result of this and other proactive
                    analysis, 47 labs are under investigation by the ZPICs and PSCs. CMS
                    also stated that MACs regularly analyze data to determine areas of highest
                    risk for improper payments in their jurisdictions; currently, five MAC
                    jurisdictions incorporate lab services within their medical review
                    strategies.
                    CMS also concurred with our third recommendation and stated that
                    effective January 6, 2014, the agency began denying claims for Part B
                    clinical lab services if the provider who ordered or referred the service was
                    not enrolled in Medicare or had obtained “opt-out” status. According to
                    CMS, the edit has resulted in claims being denied for Part B lab services,
                    and the agency will continue to closely monitor the number of denials due
                    to implementation of these new edits.
                    OIG believes that consistent and ongoing use of these strategies will better
                    enable CMS to more effectively identify and prevent improper payments
                    made for lab services.
                    The full text of CMS’s comments is provided in Appendix C.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)         21
                    APPENDIX A
                    Detailed Methodology for Evaluating Questionable Lab Billing
                    Our first step in evaluating the billing patterns of labs was to calculate
                    overall billing characteristics for the 94,609 labs included in our analysis.
                    We did this by calculating the following five totals for each lab: total
                    allowed amount, total number of claims, total number of ordering
                    physicians, and total number of beneficiaries. We then developed
                    13 measures to describe lab billing and to identify labs with questionable
                    billing. These measures were based on information from previous studies
                    on lab services, Federal criminal and civil investigations involving lab
                    services, OIG work on questionable billing for other Medicare providers,
                    discussions with CMS staff, and our own analysis.
                    Below are the descriptions of the methodologies used to calculate each of
                    the measures of questionable billing. After calculating each measure, we
                    analyzed the distribution of labs for each measure. We considered a lab’s
                    billing to be unusually high, or questionable, on a measure if the number
                    or percentage was greater than the 75th percentile plus 3 times the
                    interquartile range.31, 32 We calculated the thresholds for ILs and non-ILs
                    separately.
                    Any limitations with the data used to calculate each measure are also
                    noted. Furthermore, some claims and/or labs were excluded from several
                    of the measures. Table A1 shows the final number of labs used in the
                    analysis of each measure.
                    (1)	 High average allowed amount per claim. This measure identifies
                         labs with unusually high average allowed amounts per claim. For
                         each lab, we divided the total amount allowed by the total number of
                         claims to determine the average allowed amount per claim. We did
                         not exclude any claims or labs from this analysis.
                    (2)	 High average number of claims per beneficiary. This measure
                         identifies labs with unusually high numbers of claims per
                         beneficiary. For each lab, we divided the total number of claims by
                         the total number of beneficiaries to determine the average number of
                         claims per beneficiary. We did not exclude any claims or labs from
                         this analysis.


                    31
                       This is a standard exploratory method for identifying members of a population with
                    unusually high values on a given statistic compared to the rest of the population when no
                    benchmarks exist. See J.W. Tukey, Exploratory Data Analysis, Addison-Wesley, 1977.
                    32
                       As noted in footnote 24, one measure—compromised lab number—is a binary
                    measure, as labs either did or did not have a compromised number. Because this measure
                    is binary, it does not have a threshold.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                   22
                    (3)	 High average allowed amount per beneficiary. This measure
                         identifies labs with unusually high average allowed amounts per
                         beneficiary. For each lab, we divided the total allowed by the total
                         number of beneficiaries to calculate the average allowed amount per
                         beneficiary. We did not exclude any claims or labs from this
                         analysis.
                    (4)	 High average number of claims per ordering physician. This
                         measure identifies labs with unusually high numbers of claims per
                         ordering physician. For each lab, we divided the total number of
                         claims by the total number of ordering physicians to determine the
                         average number of claims per ordering physician.
                           Section 1877 of the Social Security Act, otherwise known as the
                           physician self-referral law or Stark Law, prohibits physicians from
                           making referrals for certain designated health services payable by
                           Medicare, including lab services, to an entity with which the
                           physician or immediate family member has a financial relationship.33
                           However, there are various exceptions to the Stark law, including
                           physicians ordering and furnishing designated health services in the
                           context of their own practices provided that certain criteria are met.
                           (This is known as the in-office ancillary services exception.34)
                           Because physicians’ self-referrals to non-ILs in their own offices
                           might have qualified for a Stark exception, we did not include non-
                           IL self-referred claims as questionable for this measure. Therefore,
                           we excluded any claim submitted by a non-IL for which the
                           performing provider was also the ordering physician (indicating a
                           self-referral). In total, we excluded 40,859,967 claims and
                           22,260 non-ILs from this analysis.
                    (5)	 High average allowed amount per ordering physician. This measure
                         identifies labs with unusually high average allowed payments per
                         ordering physician. For each lab, we divided the total allowed per
                         lab by the total number of ordering physician to calculate the average
                         allowed per ordering physician. As we did with the previous
                         measure, we excluded 40,859,967 claims and 22,260 non-ILs from
                         this analysis.




                    33
                      Social Security Act, § 1877(a), 42 U.S.C. § 1395nn(a). 

                    34
                      Social Security Act, § 1877(b)(2), 42 U.S.C. § 1395nn(b)(2). See also 42 CFR 

                    § 411.355(b).





Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                23
                    (6)	 High percentage of claims for beneficiaries with no associated
                         Part B services with the ordering physician. This measure identifies
                         labs with unusually high percentages of claims for which
                         beneficiaries did not receive a Part B service—excluding other lab
                         services and durable medical equipment, prosthetics, orthotics, and
                         supplies—from the ordering physician in the 6 months prior to the
                         lab service. For each lab, we determined the total number of lab
                         claims for beneficiaries without recent contact and divided that
                         number by the total number of claims to determine labs’ percentage
                         of claims for beneficiaries without recent contact with the ordering
                         physician.
                           Lab services must be ordered by the physician treating the
                           beneficiary. Therefore, we expect that a claim for service from the
                           ordering physician would generally precede the lab service by a
                           reasonably short period of time. For each lab claim, we determined
                           whether there was recent contact between the beneficiary and the
                           ordering physician by matching the beneficiary’s HICN and the
                           ordering physician’s NPI on the lab claim to the HICN and
                           performing provider NPI on the Part B service claim. If the
                           beneficiary had any Part B claim with a date of service in the
                           6 months prior to the lab claim, we considered this to be evidence of
                           recent contact with the physician. One limitation to this analysis,
                           however, is that there may be cases in which the ordering physician
                           was not a Medicare-enrolled physician and, therefore, a prior Part B
                           service claim billed to Medicare would not exist for this beneficiary.
                           We did not exclude any claims or labs from this analysis.
                    (7)	 High percentage of claims with beneficiaries living more than
                         150 miles from the ordering physician. This measure identifies labs
                         with unusually high percentages of claims for beneficiaries residing
                         more than 150 miles from the ordering physician. Because lab
                         services must be ordered by the physician or nonphysician
                         practitioner treating the beneficiary, we would expect that many
                         beneficiaries would reside within a reasonable distance from the
                         treating physician, i.e., ordering physician. For each lab, we
                         determined the number of claims for beneficiaries who lived more
                         than 150 miles away from the ordering physician and divided this
                         number by the total number of claims to determine the percentage of
                         claims with beneficiaries living more than 150 miles from the
                         ordering physician.
                           Using SAS, we determined the geodetic distance (the shortest line
                           between two points) in miles between beneficiary and ordering



Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)        24
                           physician. We used the beneficiary ZIP Code on the claim and the
                           ordering physician practice location ZIP Code in the NPPES files.
                           We used the zipcitydistance function in SAS to calculate the distance
                           between the beneficiary and the ordering physician.
                           For a number of claims, distance could not be calculated using SAS
                           because the ZIP Code of the beneficiary or the ordering physician
                           was invalid. For these claims, we used ArcGIS, a platform for
                           building and using geographic information systems, to calculate
                           distances. We used either the city and State of the ordering
                           physician’s practice location, or the ZIP Code of that location. For
                           any claim for which the distance could not be calculated because the
                           ordering physician’s practice location was outside of the
                           United States, Canada, or Mexico, we considered the distance to be
                           greater than 150 miles.
                           Several limitations exist for this analysis. First, the beneficiary ZIP
                           Code on the claim may reflect the beneficiary’s mailing address, not
                           where the beneficiary actually resides. Additionally, a May 2013
                           OIG report that analyzed the accuracy and completeness of NPPES
                           data found that the addresses for practice locations were often
                           inaccurate.35
                           For this analysis, we excluded claims that were missing the
                           beneficiary’s ZIP Code. We also excluded claims that were missing
                           the ordering physician’s practice location and claims with ordering
                           physicians whose practice location addresses changed in 2010.
                           Lastly, we excluded claims for which distances could not be
                           calculated in either SAS or ArcGIS. We excluded a total of
                           4,620,875 claims and 943 labs from this analysis.
                    (8)	 High percentage of duplicate lab tests. This measure identifies labs
                         with unusually high percentages of duplicate lab tests. We
                         considered tests to be duplicates if they matched on HICN,
                         performing provider NPI, end date of service, and HCPCS code. For
                         each lab, we divided the number of duplicate tests (not including the
                         first occurrence of the test) by the total number of tests to determine
                         the percentage of duplicate lab tests.
                           Medicare will pay for tests performed more than once on the same
                           day for the same patient only in certain cases. For example, there


                    35
                      OIG, Improvements Needed to Ensure Provider Enumeration and Medicare
                    Enrollment Data are Accurate, Complete, and Consistent, OEI-07-09-00440, May 2013.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)             25
                           may be times when it is necessary to perform a test more than once
                           on the same day to obtain multiple results in the course of a patient’s
                           treatment. In these cases, labs are required to report specific
                           modifiers on the claim. For this measure, we did not consider tests
                           with modifiers 59, 76, 77, 91—which are used to indicate repeat or
                           distinct tests—as duplicates. We also did not consider tests with the
                           modifiers indicating technical component (TC) or professional
                           component (26) to be duplicates. Lastly, we did not consider
                           methodology-based molecular pathology “stacked” test codes as
                           duplicates because these tests could be billed multiple times to
                           represent the performance of the entire test. We did not exclude any
                           claims or labs from this analysis.
                    (9)	 High percentage of claims with invalid ordering-physician numbers.
                         This measure identifies labs with unusually high percentages of
                         claims with invalid ordering-physician numbers. For each lab, we
                         determined the number of claims for services ordered with an invalid
                         physician number and divided that number by the total number of
                         claims per lab to determine the percentage of claims with invalid
                         ordering-physician numbers.
                           To determine whether an ordering physician had an invalid number,
                           we compared the NPIs of our ordering physicians to NPPES. If an
                           NPI was not in NPPES, we considered the ordering physician’s
                           number to be invalid. Additionally, we considered the numbers of
                           ordering physicians with deactivated NPIs to be invalid. We also
                           used NPPES to determine whether an ordering physician’s number
                           had been deactivated. If the ordering physician’s NPI was
                           deactivated prior to 2010 and either not reactivated or reactivated
                           after 2010, we considered the physician’s number to be invalid. We
                           did not exclude any labs from this analysis.
                    (10)	 High percentage of claims with ineligible ordering-physician
                          numbers. This measure identifies labs with unusually high
                          percentages of claims for services ordered with ineligible physician
                          numbers. For each lab, we divided the number of claims that had an
                          ineligible physician number by the total number of claims to
                          calculate the percentage of claims with ineligible ordering
                          physicians.
                           Lab services can only be ordered by individual physicians or
                           nonphysician practitioners who treat the beneficiary. We determined
                           whether an ordering physician was an individual using specialties
                           found in PECOS. If the ordering-physician number did not have an
                           enrollment record in PECOS, we used NPIC and NPPES data to


Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)         26
                           make the determination. We considered ordering physicians
                           identified as nonindividuals, e.g., clinical labs, clinic or group
                           practices, to be ineligible to order. We did not exclude any labs from
                           this analysis.
                    (11)	 High percentage of claims with compromised beneficiary numbers.
                          For this measure, we first identified any beneficiary HICNs listed in
                          CMS’s CNC without a removal date as of August 5, 2013. We used
                          the removal date because when CMS verifies that a number is not
                          actually compromised, it adds a removal date and reason code, but
                          does not physically remove the number from the CNC. We then
                          calculated the percentage of claims with a compromised beneficiary
                          number by dividing the number of claims with a compromised
                          beneficiary number by the total number of claims for each lab.
                           Because the CNC contains suspected numbers in addition to verified
                           numbers, we are not assuming that labs exceeding the thresholds for
                           percentage of claims with compromised beneficiary numbers are
                           necessarily fraudulent, only that they may warrant further review. In
                           addition, OIG previously reported that some CMS contractors who
                           refer provider and beneficiary numbers for inclusion in the database
                           have concerns about the quality of the information in the database.36
                           We did not exclude any claims or labs from this analysis.
                    (12)	 High percentage of claims with compromised ordering-physician
                          numbers. As we did for the previous measure, we first identified any
                          ordering-physician NPI listed in the CNC without a removal date as
                          of August 5, 2013. Then, for each lab, we calculated the percentage
                          of claims with a compromised ordering-physician number by
                          dividing the number of claims with a compromised
                          ordering-physician number by the total number of claims. We did
                          not exclude any claims or labs from this analysis.
                    (13)	 Compromised lab provider number. We considered any lab that had
                          an NPI listed in the CNC without a removal date as of August 5,
                          2013, to be questionable on this measure. We did not exclude any
                          claims or labs from this analysis.




                    36
                     OIG, CMS Response to Breaches and Medical Identity Theft, OEI-02-10-00040,
                    October 2012.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)           27
       Table A1: Total Labs Included in Analysis For Each Measure

       Measure                                                                                 N

       High averag e allowed amount per claim                                             94,609

       High average number of claims per beneficiary                                      94,609

       High average allowed amount per beneficiary                                        94,609

       High average number of claims per ordering physician                               72,349

       High average allowed amount per ordering physician                                 72,349

       High percentage of claims for beneficiaries with no associated Part 8 service
                                                                                          94,609
       with the ordering physician

       High percentage of claims with beneficiaries living more than 150 miles from
                                                                                          93,666
       the ordering physician

       High percentage of duplicate lab tests                                             94,609

       High percentage of ordering physicians with invalid numbers                        94,609

       High percentage of claims with ineligible ordering-physician numbers               94,609

       High percentage of claims with compromised beneficiary numbers                     94,609

       High percentage of claims with compromised ordering-physician numbers              94,609

       Compromised lab provider number                                                    94 ,609
       Source: OIG analysis of claims for 201 0 Part 8 clin ical lab services .




Questionable Billing for Medicare Part 8 Clinical Laboratory Services (OEI-03-11-00730)             28
            APPENDIX B
            Labs That Exceeded Thresholds for Measures of Questionable Billing in
            2010


Table B1: Labs That Exceeded Thresholds for Measures of Questionable Billing in 2010

                                                             ILs                                       Non-ILs

                                                                                                                                      Number of
                                                                                                                                       Labs that
                                                     1   Questionable     Number                  1   Questionable      Number
Measure                                     Median
                                                           Threshold      of Labs
                                                                                         Median
                                                                                                        Threshold       of Labs
                                                                                                                                       Exceeded
                                                                                                                                    Questionable
                                                                                                                                      Threshold

Average allowed amount per claim                 $46               $314     137              $19              $129        5,297             5,434
Average number of claims per
                                                   3                 13     23                  2                 9       1,157             1,180
beneficiary
Average allowed amount per
                                               $140                $536     179              $47              $303        1,810             1,989
beneficiary
Average number of claims per
                                                  18                216     147                 3                22       4,988             5,135
ordering physician
Average allowed amount per
                                             $1,081          $12,598        180              $61              $901        5,055             5,235
ordering physician
Percentage of claims for
beneficiaries with no associated
                                              17.7%            70.1%        113             5.9%            70.3%         3,417             3,530
Part B services with ordering
physician
Percentage of claims with
beneficiaries residing more than
                                               2.8%                17%      58              1.5%            12.5%         4,731             4,789
150 miles from the ordering
physician
                                                                                                                    3
Percentage of duplicate lab tests                0%                0.1%     334               0%               0%       10,210             10,544

Percentage of claims with invalid                                     3
                                                 0%                0%       455               0%               0%3        3,736             4,191
ordering-physician numbers

Percentage of claims with ineligible                                                                                3
                                               0.4%                7.6%     158               0%               0%       19,409             19,567
ordering-physician numbers

Percentage of claims with
                                              0.05%                1.6%     330               0%             0.2%       17,118             17,448
compromised beneficiary numbers
Percentage of claims with
                                                                                                                    3
compromised ordering-physician                   0%            0.08%        531               0%               0%         3,881             4,412
numbers

Compromised lab provider number2                                            13                                              121               134

Source: OIG analysis of claims for Part B clinical lab services, 2010.

1                         th
  The median (i.e., the 50 percentile) indicates that half of all labs were equal to or less than this value. 

2
  This is a binary measure. Lab provider numbers were either compromised or not compromised. Therefore, no median or threshold was 

calculated for this measure. 

3
  A threshold of 0 percent indicates that not only was the median value 0, but the IQR, which measures the spread of the middle 50 percent of data 

values, was also 0. Therefore, any lab that exceeded 0 percent for the measure was considered to have questionable billing.





            Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                                29
                             APPENDIXC
                             Agency Comments

              ...
          ,.,..   ~.,.,.""



      (             ~         DEPARIMENT OF HEALTH & HlJMANSERVICEi                                  ' CenleTS for Medicare & Medicaid Services

            ~'z\-                                                                                      Administrator
                                                                                                       Washington, DC 20201




                             DATE:           HAY Z2 Z014

                             TO: 	         Daniel R. Levinson 

                                           Inspector General 

                                                               /S/
                             FROM: 	       Marilyn T~awmner 

                                           Acting AdmiJ\istrator 


                             SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Questionable Billing for
                                        Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)


                             The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                             comment on the above subject OIG draft report. The purpose of this report is to identifY
                             potentially questionable billing patterns among Medicare clinical laboratory services.

                             As the largest payer of clinical laboratory services in the nation, CMS is committed to
                             identifYing questionable billing practices and working with all stakeholders in an effort to
                             develop stronger oversight of clinical laboratories. By focusing on specific vulnerabilities
                             identified in this draft report, CMS will be able to prevent fraud, waste, and abuse more
                             effectively in order to safeguard the Medicare program. CMS is committed to utilizing all
                             available tools to identify and prevent improper payments made for clinical laboratory services.

                             We appreciate DIG' s efforts in working with CMS to ensure that appropriate action is taken
                             regarding questionable billing for clmical laboratory services. Our responses to each of the OIG
                             recommendations are addressed below.

                             OIG Recommendation

                             The OIG recommends that CMS review the labs identified as having questionable billing and
                             take appropriate action.

                             CMS Response

                             The CMS concurs with' this recommendation and will direct the Zone Program Integrity
                             Contracts (ZPICs) to follow up and investigate those laboratories identified with questionable
                             billings.     ·




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)                                                       31
Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)   31
Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)   32
                    ACKNOWLEDGMENTS
                    This report was prepared under the direction of Robert A. Vito, Regional
                    Inspector General for Evaluation and Inspections in the Philadelphia
                    regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                    Maria S. Johnson served as the team leader for this study. Other Office of
                    Evaluation and Inspections staff from the Philadelphia regional office who
                    conducted the study include Courtney Fanslau. Central office staff who
                    provided support include Clarence Arnold, Mandy Brooks, Kevin Manley,
                    and Christine Moritz.




Questionable Billing for Medicare Part B Clinical Laboratory Services (OEI-03-11-00730)     33
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
